                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

 Case Number: A09050044                                                                                         Page 1 of 1



                 We learned that a panelist 1 had participated in the review of a proposat2 submitted by a                       pe
         with whom he had coauthored a paper4 within the year prior to the panel. 5 The panelist arrived late
         to the panel,did not receive a conflict of interests (COl) briefing from the program officer before
         participating in discussions of the proposal, and signed the NSF COl disclosure form 6 afterward
         without disclosing the conflict to the program officer. The COl disclosure form was an altered
         version ofthe standard form, in pertinent part lacking the examples of apparent COls. The panelist
         had participated on two other panels in the preceding three months in two other directorates. 7
         Documentation for those directorates consisted of similarly altered COl forms, with no specific
         documentation ofthe COl briefings provided. Therefore, the evidence available was insufficient to
         demonstrate that the panelist understood his obligation to disclose the relationship. We have
         reiterated the importance of disclosing all apparent COls prior to any discussion ofproposals while
         reviewing as a panelist. We communicated to NSF an apparent failure in the administration of
         panelist COl briefings and documentation.

                   Accordingly, this case is closed.




         4 The particular covered relationship in this case is collaboration in a publication within the last 48 months with a
         person who has a financial interest in the proposal under consideration.
         S The panel was administered in the DMR division of the MPS directorate.
         6 NSF Form 1230P.
         7 The panels were administered in the CMMI division of the ENG directorate and the DGE division of the EHR
         directorate.




NSF OIG Form 2 (11102)
